No. 19-1104
IN THE

Supreme Court of the United States
_________
MARK JANUS,
Petitioner,
v.
AMERICAN FEDERATION OF STATE, COUNTY, AND
MUNICIPAL EMPLOYEES, COUNCIL 31, ET AL.,
Respondents.
_________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
_________
PETITIONER’S SUPPLEMENTAL BRIEF
_________
JEFFREY M. SCHWAB
LIBERTY JUSTICE CENTER
190 South LaSalle Street
Suite 1500
Chicago, IL 60603
(312) 263-7668

WILLIAM L. MESSENGER
Counsel of Record
AARON B. SOLEM
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
wlm@nrtw.org
Counsel for Petitioner

Pursuant to Rule 15.8 of the Court’s Rules, Petitioner Mark Janus files this supplemental brief to
bring to the Court’s attention a recently decided case:
Diamond v. Pennsylvania State Education Association, Nos. 19-2812 & 19-3906, 2020 WL 5084266 (3d
Cir. Aug. 28, 2020). A majority of the panel in Diamond rejected the “good faith defense” recognized by
the Second, Sixth, Seventh, and Ninth Circuits, creating a conflict that the Court should resolve by granting review in this case.
1. Diamond addressed the question presented
here: is there a good faith defense to 42 U.S.C. § 1983?
The three members of the Third Circuit panel reached
different conclusions in separate opinions.
Judge Rendell accepted the good faith defense recognized by the Seventh Circuit in this case. Diamond,
2020 WL 5084266 at **4,7. Judge Rendell found this
defense to be predicated on policy interests in equality
and fairness or, alternatively, on an analogy to the
common law tort of abuse of process, id. at *6 & n.4.
Judge Fisher, concurring in the judgement, disagreed and found no categorical good faith defense to
Section 1983. Id. at *8. He recognized that this Court’s
decision in Wyatt v. Cole, 504 U.S. 158 (1992) did not
imply “that alternative policy grounds might supply
an affirmative defense” to Section 1983. Diamond,
2020 WL 5084266 at **10-11. Judge Fisher also recognized that “the torts of abuse of process and malicious prosecution provide at best attenuated analogies” to a First Amendment compelled speech claim.
Id. at *13.
However, while he rejected a good faith defense,
Judge Fisher found an alternative limit to Section
1983 liability. According to Judge Fisher, prior to

2
1871, “[c]ourts consistently held that judicial decisions invalidating a statute or overruling a prior decision did not generate retroactive civil liability with regard to financial transactions or agreements conducted, without duress or fraud, in reliance on the invalidated statute or overruled decision.” Id. at *8.
Judge Fisher concluded that Section 1983 incorporates this exception to retroactive liability. Id. at *16.
Judge Phipps, dissenting, agreed with Judge
Fisher that there is no good faith defense to Section
1983. Id. at *17. He found that “principles of equality
and fairness” do not justify such a defense. Id. at *21.
According to Judge Phipps, “[g]ood faith was not
firmly rooted as an affirmative defense in the common
law in 1871, and treating it as one is inconsistent with
the history and the purpose of § 1983.” Id.
Turning to Judge Fisher’s alternative limit on Section 1983 liability, Judge Phipps found it “immaterial
that no pre-1871 cause of action permitted recovery
for voluntary payments that were subsequently declared unconstitutional” because “the Civil Rights Act
of 1871 established a new cause of action in part to
provide ‘a remedy where state law was inadequate.’”
Id. at *19 (quoting Monroe v. Pape, 365 U.S. 167, 173
(1961), overruled on other grounds by Monell v. Dep’t
of Soc. Servs. of N.Y., 436 U.S. 658 (1977)). Moreover,
“the agency fee payments at issue here were not voluntary—they were wage garnishments that were paid
to unions.” Id. Judge Phipps thus did “not see the common law as limiting the scope of a § 1983 claim for
compelled speech—either through a good faith affirmative defense or through a separate limitation on the
statutory cause of action.” Id.

3
2. Diamond supports granting review here because
a majority of the Third Circuit panel rejected the good
faith defense recognized by the Seventh Circuit here
and by the Second, Sixth, and Ninth Circuits. See Pet.
App. 25a; Wholean v. CSEA, 955 F.3d 332 (2d Cir.
2020); Ogle v. Ohio Civil Serv. Emps. Ass’n, AFSCME
Local 11, 951 F.3d 794 (6th Cir. 2020); Danielson v.
Inslee, 945 F.3d 1096 (9th Cir. 2019). A majority of the
Third Circuit panel also rejected the two alternative
justifications cited by some of these courts for an affirmative good faith defense: policy interests in equality and fairness and a common law tort analogy.1 See
Diamond, 2020 WL 5084266 at **11-13 (Judge Fisher,
concurring in the judgment); id. at **17-21 (Judge
Phipps, dissenting). Circuit courts now disagree on
the issue this Court left open in Wyatt, 504 U.S. at
169: is there a good faith defense to Section 1983 damages liability?2
The Court should finally resolve this important issue and hold there is no good faith defense to Section
1983 for the reasons stated in the petition and by
Judge Phipps in Diamond. His opinion persuasively
establishes that neither equitable interests, nor common law analogies or history, justify deviating from
Section 1983’s statutory mandate that “[e]very person

1

See Danielson, 945 F.3d at 1101-02; Ogle, 951 F.3d at 797;
Wholean, 955 F.3d at 334.
2

Respondent AFSCME will miss the mark if it responds by arguing that the circuit courts are not split on the narrower issue
of whether unions are liable for damages for pre-Janus agency
seizures. The primary issue before this Court is whether there is
a good faith defense to Section 1983. The application of any such
defense to pre-Janus agency fee seizures is a secondary issue.

4
who, under color of any statute . . .” deprives a citizen
of a constitutional right “shall be liable to the party
injured in an action at law . . .” 42 U.S.C. § 1983.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
JEFFREY M. SCHWAB
LIBERTY JUSTICE CENTER
190 South LaSalle Street
Suite 1500
Chicago, IL 60603
(312) 263-7668

September 4, 2020

WILLIAM L. MESSENGER
Counsel of Record
AARON B. SOLEM
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION
8001 Braddock Rd.
Springfield, VA
(703) 321-8510
wlm@nrtw.org

